          Office of Inspector General
          Audit Report




                      Air


Region 10's Oversight of Washington State’s Air
    Compliance and Enforcement Program
              E1KAF7-10-0015-8100094
                  March 30, 1998
Inspector General Division   Western Audit Division
 Conducting the Audit        San Francisco Office


Region covered               Region 10


Program Office Involved      Office of Air Quality
                                          March 30, 1998

MEMORANDUM
SUBJECT:       Report on Region 10's Oversight of Washington State’s Air
               Compliance and Enforcement Program
               Audit Report No. E1KAF7-10-0015
FROM:          Truman R. Beeler
               Divisional Inspector General for Audits
               Western Audit Division
TO:            Chuck Clarke
               Regional Administrator
               EPA Region 10


       Attached is our final report titled Region 10's Oversight of Washington State’s Air
Compliance and Enforcement Program. The purpose of this audit was to determine whether the
Region implemented effective oversight of the State of Washington’s Air Compliance and
Enforcement Program.

        This audit report contains findings that describe problems the Office of Inspector General
(OIG) has identified and corrective actions the OIG recommends. This audit report represents the
opinion of the OIG and the findings contained in this audit report do not necessarily represent the
final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures.

        In accordance with EPA Order 2750, we have designated the Regional Administrator as
the Action Official for this report. The Action Official is required to provide our office with a
written response to the audit report within 90 days of the report date. The response should
address all recommendations. For corrective actions planned but not completed by the response
date, reference to specific milestone dates will assist us in deciding whether to close this report.
We have no objection to the release of this report to the public.

        We appreciate the cooperation from your staff during this review. Should you or your
staff have any questions about this report, please call Truman Beeler, Western Divisional
Inspector General for Audit, at (415) 744-2445, or Lori Risby at (415) 744-2453.
Attachment

Distribution: Appendix E
                     EXECUTIVE SUMMARY

PURPOSE
The purpose of the audit was to determine whether Region 10 (the Region) implemented effective
oversight of the Washington State’s Air Compliance and Enforcement Program. While delegated
state and local air agencies have primary responsibility for ensuring adequate air quality, EPA
retains responsibility for ensuring fair and effective enforcement of federal requirements, and a
credible national deterrence to noncompliance. In order to ensure that states and locals are
effectively carrying out federal requirements, the EPA implemented a program to track and report
on significant violators (SVs) of air pollution. The intent of the program is to ensure that
violations by major air stationary sources, namely SVs, are addressed and resolved in a timely and
appropriate manner.

This audit was initiated because of a concern from the Headquarters’ Office of Enforcement and
Compliance (OECA) that states and locals were under reporting SVs to EPA, which if not
addressed could gravely injure EPA’s ability to protect human health and the environment through
a credible compliance and enforcement program. The audit focused on major stationary sources
of air pollution in Washington State (the State).

The objectives were to determine whether:

C      The Region’s corrective actions planned in fiscal 1997 were adequate to address the under
       reporting of SVs by the State.

C      The State identified SVs consistent with EPA’s compliance and enforcement guidance.


RESULTS IN BRIEF
The Region could improve its oversight activities to ensure more accurate reporting of SVs by: (i)
implementing the corrective actions planned for fiscal 1997; (ii) conducting evaluations of State
and local air programs; (iii) assisting State and locals in implementing SV programs; (iv)
reviewing enforcement data contained in the Aerometric Information Retrieval System Facility
Subsystem (commonly known as AFS); and (v) finalizing a new compliance assurance agreement
with the State and locals.



                                                i       Report No. E1KAF7-10-0015-8100094
Additionally, we noted numerous errors in the categorization for the types of stationary sources
maintained in AFS. Sixty percent of the sources in AFS were categorized using obsolete
classification codes. We have not included this matter as a finding with recommendations because
the problem appears to be nationwide and EPA Headquarters is aware of it. Nevertheless, we
believe management should be aware that: (i) the extent of errors in the classification codes
jeopardizes the reliability of the data; and (ii) policy or management decisions should not be made
based upon the data. This issue is discussed further in APPENDIX B of this report.

Our findings are summarized below and discussed in detail in CHAPTERS 2 and 3 of this report.

Under Reporting of SVs

During fiscal 1996, the Region reported 7 of the 178 major stationary sources listed in AFS as
SVs. However, another 17 (55 percent) from our sample of 31 major sources were not reported
as SVs. The Region recognized that some states were not reporting all SVs and developed a
corrective action plan for implementation in early fiscal 1997. However, as of June 30, 1997, it
had not implemented any of the planned actions. The Region stated that implementation of the
planned actions was delayed because it was considering more complete evaluations to include
States’ inspections and enforcement follow-up on violations, in addition to identification and
reporting of SVs. Although the planned actions were not implemented, some other actions were
taken to increase the accuracy of reporting SVs by the State. While all of these actions would
result in improved reporting, if fully implemented, we believe they are insufficient to completely
address the problem of under reporting by the State. Accurate reporting of SVs is essential for
the Region to monitor the compliance status of SVs and evaluate whether timely and appropriate
enforcement actions were taken.

To assess the extent of under reporting of SVs by the State and identify specific causes for the
reporting problems, we focused on the reporting practices by the Region and selected Washington
Air Quality Authorities (WAQAs) for fiscal 1996. The causes of under reporting of SVs were
related to weaknesses in the Region’s oversight and to WAQAs’ reporting practices. Some
weaknesses in the Region’s oversight include not: (i) routinely conducting formal air compliance
program evaluations; (ii) ensuring that WAQAs understand the definition of SV, as defined in
EPA’s Guidance on Timely and Appropriate Enforcement Response to Significant Air Pollution
Violators; and (iii) ensuring that enforcement data recorded in AFS were routinely used to identify
SVs. Some reasons why WAQAs did not report SVs were because they: (i) had not established
procedures for reporting SVs; (ii) had failed to apply the EPA’s SV definition; (iii) had not
reported violations if the facility achieved timely compliance; and (iv) considered some violations
insignificant.

Accordingly, we believe the Regional Administrator needs to: (i) implement its corrective action
plan; (ii) develop procedures to evaluate the adequacy of WAQAs air programs in accordance
with EPA guidance; (iii) work with WAQAs to ensure they fully apply the SV definition; (iv)



                                                ii       Report No. E1KAF7-10-0015-8100094
review enforcement actions recorded in AFS by WAQAs; and (v) finalize a new compliance
assurance agreement with the WAQAs.

Some SVs Not Identified

Two of four WAQAs reviewed were not identifying SVs consistent with EPA’s compliance and
enforcement guidance. Inspections conducted at 11 of 20 major stationary sources by the two
WAQAs did not meet EPA level 2 inspection criteria. In addition, inspection reports on two
other sources did not contain sufficient detail to verify that level 2 inspections were conducted.
As a result, the Region was not assured that major stationary sources were in compliance with the
Act and SVs might go undetected for long periods before corrective action is taken. This
occurred because the Region had not implemented an effective oversight program for assuring
inspections were thorough enough (equivalent to level 2) to determine whether the sources’
operations met the requirements of the Act.


RECOMMENDATIONS
Specific recommendations follow the findings in CHAPTERS 2 and 3. In summary, we
recommend that the Regional Administrator improve the accuracy of reporting SVs by:

       1.      Implementing the Region’s corrective act plan.

       2.      Conducting evaluations of State and local air programs to ensure they are
               implementing their program consistent with EPA guidance.

       3.      Reviewing enforcement data recorded in AFS to identify potential SVs.

       4.      Giving priority to completing a new compliance assurance agreement.



REGION COMMENTS AND OIG EVALUATION
A draft report was provided to the Region for comment on December 30, 1997. Copies of the
draft report were also provided to the WAQAs that were included in the review. The Region
responded to the draft report on February 20, 1998 and its response is included as APPENDIX D
to this report. The response incorporated some of the WAQAs’ more significant concerns and
included as an attachment their responses for our review regarding specific details of fact and
opinion. The WAQAs’ responses are not attached to this report but are available upon request.
The Region concurred with the report recommendations and described corrective actions that
have been taken or will be taken.



                                              iii       Report No. E1KAF7-10-0015-8100094
We agree with the corrective actions taken or planned by the Region. We believe that these
actions should improve the identification and reporting of SVs by the State.




                                              iv       Report No. E1KAF7-10-0015-8100094
                                TABLE OF CONTENTS

                                                                                                                                          Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1 - INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1
       PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          1
       SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       3
       PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  3

2 - UNDER REPORTING OF SIGNIFICANT VIOLATORS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
       CORRECTIVE ACTION PLAN NOT IMPLEMENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
       ADDITIONAL STEPS NEED TO BE TAKEN TO IMPROVE REPORTING OF SVs . . . . . . 8
       CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

3 - SOME SIGNIFICANT VIOLATORS NOT IDENTIFIED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  15
       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        15
       INSPECTIONS WERE NOT LEVEL 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        16
       INSPECTION REPORTS WERE INCOMPLETE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  18
       THE REGION’S OVERSIGHT WAS INSUFFICIENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     18
       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               19
       REGION COMMENTS AND OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    19

APPENDICES

A - AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

B - OTHER MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

C - ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

D - REGION RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

E - REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35


                                                                                   Report No. E1KAF7-10-0015-8100094
[This page was intentionally left blank]




                           Report No. E1KAF7-10-0015-8100094
             CHAPTER 1
                 INTRODUCTION



PURPOSE      The purpose of the audit was to determine whether the Region
             implemented effective oversight of the Washington State’s Air
             Compliance and Enforcement Program. The audit focused on
             major stationary sources of air pollution in the State.

             The objectives were to determine whether:

             !      The Region’s corrective actions planned in fiscal 1997 were
                    adequate to address the under reporting of SVs by the
                    State;

             !      The State identified SVs consistent with EPA’s compliance
                    and enforcement guidance.


BACKGROUND   The Clean Air Act Amendments of 1990 (Act) gives EPA authority
             to set and enforce national standards to protect human health and
             the environment from emissions that pollute the air. The Act
             assigns primary responsibility to the states and local agencies for
             ensuring adequate air quality. EPA is responsible for issuing
             regulations to implement the Act.

             Emission regulations apply to two categories of air pollutants,
             criteria and hazardous. Criteria pollutants are discharged in
             relatively large quantities by many sources. EPA has set national
             standards for six criteria pollutants: (1) ozone, (2) carbon
             monoxide, (3) sulfur dioxide, (4) nitrogen dioxide, (5) lead, and (6)
             particulate matter. The standards specify acceptable air pollution
             concentrations for a geographic area. States are required to meet
             these standards.

             Regulations also apply to hazardous air pollutants, or air toxics.
             These pollutants come from specific sources, such as auto paint
             shops, chemical factories, or incinerators. Currently, there are 189
             toxic air pollutants, including asbestos, benzene, vinyl chloride,
             arsenic, mercury, and radio nuclide. Toxic air pollutants are known

                           1        Report No. E1KAF7-10-0015-8100094
                         to or suspected of causing cancer or other serious health effects,
                         including damage to the respiratory or nervous systems, birth
                         defects and reproductive effects. Some can cause death or serious
                         injury if accidentally released in large amounts.

Program Funding          Section 105 of the Act provided for federal grants to help State and
                         local agencies prevent and control air pollution. In fiscal 1996, the
                         Region awarded a Section 105 grant to the State totaling
                         $6,794,370. The grant agreement included a requirement for the
                         State to follow EPA’s guidance on Timely and Appropriate
                         Enforcement Response to Significant Air Pollution Violators.
                         However, with the implementation of the Title V, Operating
                         Permits Program¹, grant funds will no longer be available for
                         compliance and enforcement activities of major stationary sources.
                         These activities will be funded from the revenue collected from
                         facilities through the Title V program.

Program Administration   The State’s Air Quality Program is administered through
                         cooperation and coordination among the Washington Air Quality
                         Authorities (WAQAs). The WAQAs consist of the Washington
                         Department of Ecology (WDOE) and seven Local Air Pollution
                         Control Authorities (APCAs). WDOE has jurisdiction over
                         stationary sources in 16 of the State’s 39 counties. In addition,
                         WDOE has state-wide jurisdiction over chemical pulp mills and
                         primary aluminum smelters. The seven APCAs have jurisdiction
                         over stationary sources in the other 23 counties of the State.

                         Roles and responsibilities of the Region and WAQAs concerning
                         the enforcement for stationary source air pollution control
                         programs have been established by the Compliance Assurance
                         Agreement between the Region and WAQAs for fiscal 1993.
                         Informal extensions have been used by the Region to keep the
                         agreement in effect through fiscal 1997.




                         ¹ Title V, Operating Permits Program is a component of the Clean Air Act
                         Amendments of 1990. Title V requires “major” sources of air pollution to
                         incorporate all provisions contained in the rest of the Act in a single document
                         or “permit.” This permit must be approved through programs run by the states.
                         Operating permits will become the primary enforcement vehicle of the Act.


                                         2         Report No. E1KAF7-10-0015-8100094
SCOPE AND     We performed this audit in accordance with the Government
METHODOLOGY   Auditing Standards (1994 Revision) issued by the Comptroller
              General of the United States as they apply to performance audits.
              Our review included tests of the program records and other
              auditing procedures we considered necessary for the purpose of
              expressing an opinion based on our audit objectives. We also
              reviewed the Federal Manager’s Financial Integrity Act reports for
              1995, 1996, and 1997. The reports did not identify any material
              weaknesses, or vulnerabilities, relating to the issues discussed in
              this report. See APPENDIX A for scope and methodology details.


PRIOR AUDIT   There have been no prior audits performed on the Region’s
COVERAGE      oversight of the State’s Air Compliance and Enforcement Program.
              On February 14, 1997, the EPA OIG issued an audit report (report
              no. E1KAF6-03-0082-710015) entitled Validation of Air
              Enforcement Data Reported to EPA by Pennsylvania. The report
              concluded that Pennsylvania did not report all SVs to EPA and did
              not take aggressive enforcement action to bring the violating
              facilities into compliance. This report was the basis for initiating
              our audit of the State’s reporting and identification of SVs.




                            3       Report No. E1KAF7-10-0015-8100094
[This page was intentionally left blank]




                   4       Report No. E1KAF7-10-0015-8100094
            CHAPTER 2
UNDER REPORTING OF SIGNIFICANT VIOLATORS



           The Region could make improvements to its oversight activities to
           ensure more accurate reporting of SVs. During fiscal 1996, the
           Region reported 7 of the State’s 178 major air stationary sources in
           AFS as SVs. However, another 17 (55 percent) from our sample
           of 31 major sources were not reported as SVs. The Region
           recognized that some states were not reporting all SVs and
           developed a corrective action plan for implementation in early fiscal
           1997. However, as of June 30, 1997, it had not implemented any
           of the planned actions. Although the planned actions were not
           implemented, some other actions were taken to increase the
           accuracy of reporting SVs by the State. While all of these actions
           would result in improved reporting, if fully implemented, we believe
           they are insufficient to completely address the problem of under
           reporting by the State. Accurate reporting of SVs is essential for
           the Region to monitor the compliance status of SVs and evaluate
           whether timely and appropriate enforcement actions were taken.

           To assess the extent of under reporting of SVs by the State and
           identify causes for the reporting problems, we focused on the
           reporting practices by the Region and WAQAs for fiscal 1996. The
           causes of under reporting of SVs were related to weaknesses in the
           Region’s oversight and to WAQAs’ reporting practices. Some
           weaknesses in the Region’s oversight include not: (i) routinely
           conducting formal air compliance program evaluations; (ii)
           ensuring that WAQAs understand the definition of SV; and (iii)
           ensuring that enforcement data recorded in AFS were routinely
           used to identify SVs. Some reasons why WAQAs did not report
           SVs were because they: (i) had not established procedures for
           reporting SVs; (ii) failed to apply the EPA’s SV definition; (iii) had
           not reported violations if the facility achieved timely compliance;
           and (iv) considered some violations insignificant.

           Accordingly, we believe the Regional Administrator needs to: (i)
           implement its corrective action plan; (ii) develop procedures to

           evaluate the adequacy of WAQAs’ air programs in accordance with

                         5        Report No. E1KAF7-10-0015-8100094
EPA guidance; (iii) work with
WAQAs to ensure they fully       BACKGROUND
apply the SV definition; (iv)
review enforcement actions       Reporting Requirements
recorded in AFS by WAQAs;
and (v) finalize a new
compliance assurance
agreement with the WAQAs.

                                 The 1993 Compliance Assurance Agreement between the Region
                                 and WAQAs requires SVs to be reported to the Region through
                                 monthly enforcement conference calls or meetings. The Region
EPA’s Timely and                 informally extended the agreement with WAQAs through fiscal
Appropriate Enforcement          1997. At the start of fiscal 1997, the Region began drafting a new
Response to Significant Air      agreement. According to the Region, this new agreement will
Pollution Violators provides     clearly describe the expectations of each entity, regarding air
guidance for EPA and state²      enforcement and compliance programs, including reporting SVs. In
enforcement of significant air   addition, it will describe procedures to follow to assure adherence
pollution violators. The         to EPA guidance. However, as of the date of our review, the
guidance defines a SV as any     agreement had not been finalized.
“major” (as defined by the
Act) stationary source of air
pollution which is violating a
federally enforceable
regulation. This policy
requires states to report SVs
to EPA within 1 month of the
violation. The Region
controls the SV designation in
AFS, and after consultation
with the state and local
agency, the Region will either
add a source to the SV list or
delete a source from the SV
list. Once the violation is
reported, the state and the
Region should monitor the
source until it achieves
compliance. This includes
determining an appropriate
time schedule for achieving
compliance and assessing a
penalty, if necessary.


                                               6       Report No. E1KAF7-10-0015-8100094
A Recent Issue                In an audit report (Report No. E1KAF6-03-0082-7100115, dated
                              February 14, 1997), the OIG reported that the State of
                              Pennsylvania was under reporting SVs to EPA. In response to the



                              ² “state” as used in the background section of this chapter also refers to local
                              agencies where they have enforcement authority.



draft report, the Assistant            problem with substantial gravity and expect all of
Administrator of OECA sent             you will work to help the Agency make appropriate
a memorandum, dated                    corrections.
November 19, 1996, to the
EPA Regional Administrators   The memorandum also requested the regions to: (i) immediately
which stated:                 discuss the report’s findings and OECA’s views on the seriousness
                              of the situation with their states; (ii) identify all states that have a
      If                      SV reporting problem through an examination of in-house
      unaddressed,            information; and (iii) propose strategies to assess reporting
      the problems            problems. The Regions were requested to notify OECA of the
      identified by           results of the assessments of state reporting accuracy and proposed
      the IG would            corrective strategies by December 3, 1996.
      gravely injure
      our ability to
      protect human
      health and the
      environment
      through a
      credible
      compliance
      and
      enforcement
      program. … I
      have also
      requested the
      IG to work
      with us to
      determine
      whether there
      are
      comparable
      problems in
      other states. I
      view this

                                               7         Report No. E1KAF7-10-0015-8100094
The Region’s Response     The Region 10 Administrator notified OECA of the results of their
                          assessment of state reporting accuracy and proposed a corrective
                          action strategy in a memorandum, dated December 5, 1996. A
                          preliminary assessment of the quality of SV reporting from the
                          Region’s four states identified that Oregon and Washington were
                          under reporting SVs. The Region’s Office of Air Quality
                          proposed to assess the level of SV under reporting through a file
                          review in each of the four States during fiscal 1997, preferably by
                          the end of the second quarter. The Region’s plan also included
                          steps to design and conduct comprehensive multi-program
                          enforcement program evaluations in each state during fiscal 1997,
                          with completeness of priority reporting as one focus.

                          Finally, the Region stated that the WAQAs did not report violations
                          against major sources that were discovered and addressed or
                          resolved in a timely manner. These violations were not reported
                          because WAQAs staff did not see the need to report the violations
                          and preferred not to discuss the cases during monthly SV
                          conferences with the Region. During fiscal 1996, a total of seven
                          SVs was reported to the Region.



CORRECTIVE ACTION         The Region’s corrective action plan, if implemented, would
PLAN NOT                  increase the accuracy of SV reporting by WAQAs. It was
IMPLEMENTED               scheduled for implementation during fiscal 1997, but as of June 30,
                          1997 the Region had not initiated any of the planned actions. The
                          Region stated that implementation of the plan was delayed because
                          they were considering more complete evaluations to include States’
                          inspections and enforcement follow-up on violations, in addition to
                          identification and reporting of SVs.

Some Corrective Actions   While the Region has not yet implemented its original or an
Taken                     expanded plan, it has taken some corrective action. At the request
                          of WDOE, the Region expanded the monthly conference
                          calls/meetings to involve representatives from all the WAQAs
                          instead of one person from WDOE representing the WAQAs.
                          While we believe this effort should increase reporting of SVs, the
                          Region needs to implement the corrective action plan and other
                          steps (as discussed below) to completely address the reporting
                          problem.




                                        8       Report No. E1KAF7-10-0015-8100094
ADDITIONAL STEPS        While the Region’s planned corrective actions, if implemented,
NEED TO BE TAKEN TO     would provide some improvements in reporting SVs, additional
IMPROVE REPORTING       steps need to be taken to address some underlying causes of under
OF SVs                  reporting. The Region needs to: (i) conduct periodic evaluations of
                        WAQAs air programs to ensure consistent implementation with
                        EPA guidance; (ii) work with WAQAs to ensure they fully apply
                        the SV definition; (iii) review enforcement actions recorded in AFS
                        by WAQAs; and (iv) finalize a new compliance assurance
                        agreement with the WAQAs.

                        To identify the causes for and the extent of under reporting of SVs,
                        we reviewed reporting practices of selected WAQAs for fiscal
                        1996. During this period, 7 of the 178 major stationary sources in
                        AFS for the State were reported as SVs. To assess the proper
                        status of the other 171 sources, we selectively sampled 42 at four
                        WAQAs. For 11 of the sampled sources we could not determine
                        the compliance status because of the WAQAs inadequate inspection
                        procedures (see Chapter 3 of this report). For the remaining 31
                        major stationary sources, 17 (55 percent) had violations during
                        fiscal 1996 that met EPA’s SV definition; yet they were not
                        reported as SVs in AFS.

                        There were various reasons why the WAQAs were not reporting
                        SVs, including they: (i) had not established procedures for
                        reporting SVs to the Region; (ii) did not fully apply the SV criteria;
                        (iii) did not report violations if timely compliance was achieved; and
                        (iv) considered some violations insignificant.

                        The Region was unaware of the significant violations by these
                        major sources. As a result, it was unable to monitor the compliance
                        status of SVs and was limited in its ability to evaluate whether
                        timely and appropriate enforcement actions were taken against SVs.
                        The results of our review at the four WAQA are discussed below.

Washington Department   The review of enforcement files for 9 of the 18 major sources
of Ecology-Industrial   showed that 7 sources had violations which met EPA’s SV
Section (WDOE)          definition. The seven sources were not reported as SVs to the
                        Region. The WDOE had issued notices of violations (NOVs)
                        against five of the seven sources. Many of the NOVs were
                        recorded in AFS but they were not identified as SVs because
                        WDOE had not included these NOVs in its monthly conferences
                        with the Region, and the Region did not review the information in


                                      9        Report No. E1KAF7-10-0015-8100094
AFS to identify these             CEM data that did not result in a formal enforcement action were
potential SVs.                    considered minor.

One NOV issued against a
source had not been resolved
timely. In this situation, the
NOV cited six violations, of
which two remain unresolved.
One violation was more than
2 years old. The violations
related to a failure to operate
equipment within required
limits, resulting in excess
emissions. These outstanding
violations had not been
reported to the Region and
we found no evidence that the
source achieved compliance.

The other two sources that
met EPA’s SV definition had
emission violations that were
based on continuous emission
monitoring (CEM) data for
which no enforcement actions
were taken. WDOE indicated
these violations were minor
exceedences. While WDOE’s
comments are noted, based
on EPA’s guidance, these
violations met the SV
definition.

SVs went unreported
because: (i) violations were
often corrected before or
within 30 days of issuing the
NOV; (ii) enforcement
actions recorded in AFS by
WDOE were not discussed
during monthly conference
calls or meetings; and (iii)
excess emissions based on


                                               10       Report No. E1KAF7-10-0015-8100094
                    The WDOE commented that prior to 1997, emission limit
                    exceedences were not routinely reported or identified to the Region
                    due mostly to a lack of understanding by the WAQAs of what the
                    Region considered a violation and efforts by the WAQAs to correct
                    violations quickly. It maintains that emission exceedences that are
                    identified and resolved within a 30-day time period do not
                    constitute a significant violation. However, WDOE agrees that
                    such violations should be reported in AFS and advised that new
                    procedures were implemented that included reporting any violation
                    at major sources to the Region during monthly conference
                    calls/meetings.

Puget Sound Air     The review of enforcement files for 19 of 54 major sources showed
Pollution Control   that 6 sources had violations which had not been reported as SVs.
Authority (APCA)    The compliance status for 6 of the remaining 13 sources reviewed
                    was not determinable because the facilities had not been adequately
                    inspected by the APCA.

                    The APCA had not adequately identified all SVs because:

                    1. It did not use the complete SV definition for major sources
                    contained in EPA’s Timely and Appropriate Enforcement Response
                    Guidance. Accordingly, the APCA excluded some violations
                    related to:

                    C      State Implementation Plan (SIP) emission, monitoring, or
                           substantial procedural requirements, regardless of pollutant
                           designation status.
                    C      New Source Performance Standards (NSPS) emission,
                           monitoring or substantial procedural requirements.
                    C      National Emission Standards for Hazardous Air Pollutants
                           (NESHAP) emission, monitoring or substantial procedural
                           requirements for existing NESHAP standards and
                           promulgated maximum achievable control technology
                           requirements.

                    2. It had not established procedures to identify SVs at the time the
                    violations were first identified. Instead, SVs were not identified
                    and reported until penalty assessments were initiated against the
                    sources. Violations that did not result in penalty assessments were
                    not evaluated against the SV definition.




                                 11       Report No. E1KAF7-10-0015-8100094
Southwest Air Pollution    The review of enforcement files for 8 of 14 major sources showed
Control Authority (APCA)   that 4 sources had violations which met EPA’s SV definition. None
                           of the violations had been reported as SVs in AFS. The APCA did
                           not report these violations because three of the four violations
                           identified were not considered to be significant by its interpretation
                           of the SV definition. The three violations were related to visible
                           emissions from ship loading operations at grain elevators which are
                           not subject to federal or state standards. The violations cited were
                           based on the APCA’s rules which are more stringent than the
                           federal or state standards.

                           We agree that the three violations were based on local APCA rules.
                           However, these rules have been incorporated into the State’s SIP.
                           SIP violations meet the definition of a SV in accordance with EPA
                           guidance which states:

                                   agencies shall deem a source to be a Significant
                                  Violator if it is: 1. a. major source … ,and it violates
                                  any one or more of the following:
                                         a. SIP emission, monitoring or substantial
                                         procedural requirements …

                           The fourth violation was at a source that was under a consent order
                           administered by the Region for past violations, and the APCA
                           advised that the Region was aware of the current violation. The
                           current violation related to excess emissions of benzene, a toxic air
                           pollutant. The APCA did not consider this violation a significant
                           air quality issue. Our discussions with a regional official indicated
                           they were not aware of this violation. However, the Region agreed
                           the violation meets the SV definition and should have been
                           reported.

                           We also noted that violations at two of the four sources had not
                           been resolved within the 150-day time line specified by the EPA’s
                           Timely and Appropriate Enforcement Response Guidance. Since
                           the sources were not identified as SVs, this may have contributed to
                           the delay in corrective actions.


Yakima Regional Clean      The review of enforcement files for all six major sources under the
Air Authority (RCAA)       RCAA jurisdiction showed that one was reported as a SV in AFS.
                           The compliance status for the other five sources was not

                           determinable because the facilities had not been adequately

                                        12        Report No. E1KAF7-10-0015-8100094
inspected by the RCAA.
                                 CONCLUSION


EPA guidance on reporting        RECOMMENDATIONS
SVs is intended to be used by
EPA Regions, states, and
local air agencies. When
effectively implemented, it
will ensure that violations
which are environmentally
most important, namely SVs,
are highlighted so they can be
addressed in a timely and
appropriate manner. The
Region needs to take steps to
address the under reporting of
SVs in the State. This
includes implementing the
corrective action plan it
prepared for fiscal 1997 as
well as evaluating WAQAs’
programs, assisting WAQAs
in implementing SV
programs, reviewing
enforcement data in AFS,
and finalizing a new
compliance assurance
agreement with the WAQAs.

                                     2-2.    Conduct evaluations of the WAQAs’ programs for
We recommend that the                        consistency with EPA guidance.
Regional Administrator:
                                     2-3.    Work with WAQAs to ensure they apply the SV
       2-1.    Implement the                 definition to major sources.
               corrective
               action plan           2-4.    Review enforcement data from AFS to identify SVs.
               submitted to
               OECA on               2-5.    Give priority to completing a new compliance
               December 5,                   assurance agreement with the WAQAs.
               1996.




                                            13      Report No. E1KAF7-10-0015-8100094
REGION COMMENTS                  The Region concurred with our recommendations and described
AND OIG EVALUATION               corrective actions that have been or will be taken. The Region also
                                 commented that there is an implication that SVs involve the
                                 environmentally most important violations. It advised there is
                                 currently some debate whether some violations designated as
                                 significant under the current definition are minor in scope or
                                 impact, and should not be considered environmentally significant.



We agree with the corrective            Pollution Violators - SVT&A) in certain respects.
actions the Region has taken            However, we have not agreed to any specific
or planned to take. We are              revisions or to a suspension of any of the provisions
aware of the concern by state           of that policy while this review is being conducted.
and local air agencies                  The SVT&A Policy is controlling until revised.
regarding the SV definition.
To address this concern, a       The memorandum further states that the policy avoids subjective
work group, involving EPA        determinations to the extent practicable in the initial identifications
and two independent              of significant violations, requiring identification of all emission
organizations representing the   requirement violations, all monitoring requirement violations and all
states and locals nationwide,    substantial procedural requirements.
has been established to
discuss revisions to the
current SV policy. However,
as stated in a June 27, 1997,
OECA memorandum, the
current SV policy is still in
effect. The memorandum
states:

       We have
       recently
       agreed to
       consider
       requests to
       modify this
       policy (Timely
       and
       Appropriate
       Enforcement
       Response to
       Significant Air


                                               14       Report No. E1KAF7-10-0015-8100094
15   Report No. E1KAF7-10-0015-8100094
[This page was intentionally left blank]




                  16       Report No. E1KAF7-10-0015-8100094
                     CHAPTER 3
         SOME SIGNIFICANT VIOLATORS NOT IDENTIFIED



                    Two of four WAQAs reviewed were not identifying SVs consistent
                    with EPA’s compliance and enforcement guidance. Inspections
                    conducted at 11 of 20 major stationary sources by the WAQAs did
                    not meet EPA level 2 inspection criteria. In addition, inspection
                    reports on two other sources did not contain sufficient detail to
                    verify that level 2 inspections were conducted. As a result, the
                    Region was not assured that major stationary sources were in
                    compliance with the Act and SVs might go undetected for long
                    periods before corrective action is taken. This occurred because
                    the Region had not implemented an effective oversight program for
                    assuring inspections were thorough enough (equivalent to level 2)
                    to determine whether the sources’ operations met the requirements
                    of the Act.


BACKGROUND          An inspection is the air program’s primary compliance assurance
                    method for validating major stationary source performance. In its
                    absence, EPA lacks sufficient evidence that a particular source is
                    operating in compliance with the Act. Accordingly, EPA requires
                    periodic onsite inspections, usually once a year, of major stationary
                    sources to check whether a source is complying with emission
                    limits and whether emission control systems are working properly.
                    Inspections provide an effective mechanism for identifying SVs.

                    The EPA Clean Air Act Compliance and Enforcement Guidance
                    Manual specifies five levels of inspections, of which level 2 is
                    considered to be the minimum for compliance determinations. A
                    level 2 inspection is an onsite inspection of a facility. It comprises
                    reviewing facility records, recording process rates and control
                    equipment performance parameters, and performing visible
                    emission observations. These inspection activities are intended to
                    ensure that: (i) the compliance status of each source is determined
                    in a credible manner; (ii) a source in violation of regulated or
                    permitted emissions is not overlooked; and (iii) sources determined
                    to be in compliance with applicable emission limitations have been
                    thoroughly and completely evaluated. Inspection reports are

                                  17       Report No. E1KAF7-10-0015-8100094
                   prepared to summarize findings and recommendations following
                   level 2 inspections. The 1993 Compliance Assurance Agreement
                   provided a mechanism to ensure inspections conducted by WAQAs
                   were consisted with EPA guidance. The agreement states that:

                          EPA will conduct oversight (joint) inspections by (or
                          with) WAQAs to ensure that the quality of
                          inspections and the reports documenting the
                          inspections are consistent and complete. If
                          appropriate, EPA will provide guidance, either
                          generically or on a case-by-case basis, to assist the
                          WAQAs to improve their program.


INSPECTIONS WERE   Two WAQAs ( Puget Sound APCA and Yakima RCAA) had not
NOT LEVEL 2        conducted level 2 inspections for 11 of 20 major stationary sources
                   reviewed. Although the inspections were identified as level 2 in the
                   Region’s database, there was not any evidence in the files that the
                   inspections met EPA’s level 2 inspection criteria.

Puget Sound APCA   Inspections for 6 of 14 major sources did not fully meet EPA level
                   2 inspection criteria. Inspection reports for the six sources
                   disclosed that the inspections did not cover 100 percent of the
                   facilities’ source points. For example, the inspection reports issued
                   December 1, 1995 and April 3, 1996 for a lime manufacturing
                   company provided inspection results for a heat exchanger and
                   hydrator scrubber, respectively. However, the inspections did not
                   include other point sources at the facility such as the baghouses and
                   the coal firing system.

                   The incomplete inspections were attributed to the APCA not having
                   procedures to ensure that scheduled level 2 inspections met EPA’s
                   level 2 inspection criteria. In response to this issue, the APCA
                   acknowledged that its inspections were not level 2 and stated it
                   planned to implement improvements. It has initiated action to work
                   with the Region to ensure that its inspectors receive training on
                   conducting level 2 inspections.

Yakima RCAA        Inspections conducted for five of six major stationary sources did
                   not fully meet the EPA level 2 inspection criteria. The inspection
                   records for the five sources showed that the inspections were based
                   solely on observations for visible opacity emissions. There were no
                   indications that the inspector evaluated the sources’ operation, such


                                18        Report No. E1KAF7-10-0015-8100094
as determining compliance with operating parameters established in
the construction permits. Also, inspection reports were not
prepared as required by EPA guidance.

The causes of deficiencies in inspections conducted by the RCAA
include a lack of written policies or guidelines on how to conduct
source inspections, as well as providing timely training to
inspectors. In addition, the RCAA did not always have the most
current permits or other pertinent information during an inspection
because of the RCAA’s poorly maintained and disorganized filing
system. The documents were loose in the folders and generally not
in any chronological or sectional order. Some key documents, such
as construction permits and prior inspection reports, could not be
located in the files. Consequently, the inspector was unable to
conduct inspections in a thorough and effective manner.

We noted that the RCAA issued a consent decree against one of the
five sources in December 1995, requiring the company to install
emission control equipment at the facility by December 1997. Also,
the decree required the company to take all reasonable precautions
for the operation and maintenance (O&M) of existing equipment to
prevent excess emissions while the compliance schedule was being
complied with. In addition, if the company failed to conduct
reasonable O&M to prevent excesses, penalties could be assessed
for each day that the excess emissions occur.

Because the RCAA had not adequately inspected the facility to
verify that the company conducted reasonable O&M to prevent
exceedences, the company continued to report excess emissions
without having to demonstrate that reasonable measures were taken
to prevent the excess emissions. A review of 4 months of emission
data submitted by the company between December 1995 and June
1997 showed an average of 30 opacity violations occurred each
month.

The RCAA commented that there were additional facts pertinent to
this facility. It advised that it had:

1. An on going dialogue with the source which resulted in
numerous operating and management changes.

2. Conducted and reported on five “method nine” inspections.

3. Made numerous unannounced visits and drive-bys by staff.

             19       Report No. E1KAF7-10-0015-8100094
                     4. Made three (maybe four) on-site tours of the facility.

                     RCAA records that we reviewed did not have written
                     documentation or other evidence supporting these assertions. The
                     records, however, did contain evidence that the excess emissions at
                     the facility appeared constant for over a year and a half.

                     RCAA officials also stated that in 1996 they had restructured their
                     organization as well as a change in management to improve their air
                     program. While some improvements have been made, they
                     acknowledge there is still much more that needs to be done.


INSPECTION REPORTS   Reports for two major source inspections at the Puget Sound
WERE INCOMPLETE      APCA did not provide sufficient information to verify that level 2
                     inspections were conducted. While we were able to determine that
                     level 2 inspections were actually conducted, we concluded that
                     inspection reports were insufficient because the APCA had not
                     established procedures to ensure that inspection results were
                     adequately documented.

                     For the two major sources, the inspection reports did not indicate
                     whether O&M records were reviewed. O&M records provide
                     important information when investigating possible causes of air
                     emission violations, as well as control equipment breakdowns.


THE REGION’S         The Region’s oversight activities were insufficient to ensure level 2
OVERSIGHT WAS        inspections were being performed by WAQAs. While the Region
INSUFFICIENT         conducted some joint inspections with the WAQAs included in our
                     review, we found no instances where formal evaluations of WAQA
                     inspectors’ performance were completed by the Region.
                     Additionally, the Region had not ensured that the WAQAs received
                     adequate guidance and inspector training as agreed to in the 1993
                     Compliance Assurance Agreement. We believe these actions are
                     necessary to ensure that WAQA inspectors are conducting
                     inspections consistent with EPA level 2 inspection criteria.


RECOMMENDATIONS      We recommend that the Regional Administrator:




                                  20        Report No. E1KAF7-10-0015-8100094
                            3-1.    Conduct evaluations of WAQA inspection programs
                                    to ensure they are consistent with EPA program
                                    guidance.

                            3-2.    Ensure WAQA inspectors receive adequate training
                                    for conducting level 2 inspections of major
                                    stationary sources.

                            3-3.    Periodically review inspection reports prepared by
                                    WAQAs to ensure the scheduled level 2 inspections
                                    reported to EPA are consistent with EPA inspection
                                    criteria.


REGION COMMENTS      The Region concurred with the recommendations and described
AND OIG EVALUATION   corrective actions taken or planned during fiscal 1998. We agree
                     with the corrective actions taken or planned by the Region.




                                   21      Report No. E1KAF7-10-0015-8100094
[This page was intentionally left blank]




                  22       Report No. E1KAF7-10-0015-8100094
     APPENDIX A
AUDIT SCOPE AND METHODOLOGY



    Our audit was designed to address OECA’s concern that States
    are under reporting SVs to EPA. Audit fieldwork was
    conducted between April 14, 1997 and November 21, 1997 at
    the Region and four WAQA offices (see Table below). The
    WAQAs selected have jurisdiction for 92 (52 percent) of the 178
    major air stationary sources within the State of Washington. The
    audit covered procedures for identifying and reporting SVs in
    effect between October 1, 1995 and June 30, 1997.

          Region 10             State Agency       Local Air Authority

     ! Office of Air        ! Washington           ! Puget Sound Air
       Quality                Department of          Pollution Control
                              Ecology Industrial     Authority
                              Section
                                                   ! Southwest Air
                                                     Pollution Control
                                                     Authority

                                                   ! Yakima Regional
                                                     Clean Air
                                                     Authority


    The scope included a review of management controls associated
    with identification and reporting of SVs. We obtained an
    understanding of those controls through inquiries, observations,
    and inspections of documents and records. We assessed the
    control environment, policies, and procedures for the offices
    listed above.

    Specifically, we interviewed officials in the Region’s Office of
    Air Quality and the four WAQAs. We reviewed the Region’s
    proposed strategy for addressing under reporting of SVs, as well
    as applicable laws, regulations, guidance documents, and
    examined records maintained at the offices. We did not review
    the appropriateness of enforcement actions taken by WAQAs
    because of a recent national OIG audit (Report No.

                       23    Report No. E1KAF7-10-0015-8100094
E1GAE5-05-0169-7100306, dated September 30, 1997) which
addressed this issue. That audit report contained
recommendations to OECA for improving enforcement programs
to deter violators across the nation.

To assess the extent of under reporting of SVs in Washington,
we selected a judgement sample of 42 air quality files from 92
major stationary sources within the jurisdiction of the selected
WAQAs. The judgement sample consisted of sources that (i)
had notices of violation issued, or (ii) were inspected during
fiscal 1996 with no violations reported.

To evaluate the adequacy of identifying SVs, we selected a
judgement sample of 35 scheduled level 2 compliance
inspections out of 87 for fiscal 1996. We reviewed the
inspection reports prepared and evaluated the results based on
EPA level 2 inspection criteria.

Finally, we compared major source information obtained from
AFS with information obtained from WAQAs for the same time
period, and followed up on any differences. However, we did
not review the internal controls associated with the input and
processing of information into AFS or any other automated
record system.




               24       Report No. E1KAF7-10-0015-8100094
                     APPENDIX B
                       OTHER MATTERS



                     During the audit we noted numerous errors in data the Region was
                     responsible for maintaining in a national database (commonly
                     known as AFS). We have not included this matter as a finding with
                     recommendations because the problem appears to be nationwide
                     and Headquarters is aware of it. However, we are presenting the
                     condition here to highlight the need for management to be aware
                     that the extent of errors in the classification codes jeopardizes the
                     reliability of the data. We do not believe that policy or management
                     decisions should be made based upon the data.


STATIONARY SOURCES   Stationary air sources contained in the AFS were incorrectly
INCORRECTLY          classified. The Region reported a total of 353 stationary sources in
CLASSIFIED IN AFS    AFS for the State. According to a memorandum, dated April 27,
                     1993, issued by Headquarters’ Office of Air and Radiation, the
                     stationary sources were to be categorized into four classification
                     codes for consistency with current definitions in the Act:

                            C       A - pollutants emitted or have potential to be
                                    emitted in major amounts from the source as
                                    defined by the Act. (Major)
                            C       SM - potential to emit pollutants in major
                                    threshold amounts if federal limits were
                                    violated. (Synthetic Minor)
                            C       B - actual or potential emissions below all
                                    applicable major source thresholds. (Minor)
                            C       C - class is unknown.

                     We found that 214 (60 percent) of the 353 sources in AFS were not
                     categorized using these classification codes. Instead, they were
                     classified as A1, A2, or Other. The April 1993 memorandum
                     indicated that these codes were obsolete after December 1994.



                     The Region stated that the reclassification had not been completed

                                  25        Report No. E1KAF7-10-0015-8100094
because: (i) Headquarters had not “pushed” the reclassification
requirement, and as a result, none of the regions had completed the
revisions; (ii) it was involved with merging two other automated
compliance databases into AFS; and (iii) of turnover in staff.

EPA Headquarters stated that it has been lenient on the requirement
to reclassify the sources because: (i) it realized, after issuing the
guidance, that the timeframe for completion by December 1994 was
unrealistic due to the large number of sources in AFS; and (ii) many
sources will change class size under the Title V program. It also
stated that the use of the obsolete classification codes should not
prevent sources from being flagged as a SV.

It has been almost 3 years since the stationary sources in AFS were
to be reclassified and neither the Region nor Headquarters have
committed to establishing a timeframe for completing the
reclassification. As a result, many sources in AFS do not have an
identification consistent with the Act.

In response to the draft report, the Region agreed that it needs to
complete the reclassification and indicated it “has begun working
with the States to reclassify the source codes and to ensure that
State enforcement activity in AFS is complete and accurate.”




             26        Report No. E1KAF7-10-0015-8100094
                 APPENDIX C
                       ACRONYMS



ACT         Clean Air Act
AFS         Aerometric Information Retrieval System Facility Subsystem
APCA        Air Pollution Control Authority
CEM         Continuous Emission Monitoring
EPA         Environmental Protection Agency
NESHAP      National Emission Standards for Hazardous Air Pollutants
NOV         Notice of Violation
NSPS        New Source Performance Standards
O&M         Operation and Maintenance
OECA        Office of Enforcement and Compliance Assurance
OIG         Office of Inspector General
RCAA        Regional Clean Air Authority
SIP         State Implementation Plan
SV          Significant Violator
the State   Washington State
WAQA        Washington Air Quality Authority
WDOE        Washington Department of Ecology




                              27       Report No. E1KAF7-10-0015-8100094
[This page was intentionally left blank]




                  28       Report No. E1KAF7-10-0015-8100094
                                    APPENDIX D
                      REGION RESPONSE TO DRAFT REPORT



Attached are the Region’s comments to the draft report.




                                                  29      Report No. E1KAF7-10-0015-8100094
[This page was intentionally left blank]




                  30       Report No. E1KAF7-10-0015-8100094
                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       REGION 10
                                   1200 Sixth Avenue
                                Seattle, Washington 98101

                                              FEB 20 1998
Reply To
Attn Of:    OAQ-107


MEMORANDUM

SUBJECT:       Draft Report on Region 10's Oversight of Washington State's Air Compliance and
               Enforcement Program - Audit Report No. E1KAF7-10-0015

FROM:          Chuck Clarke
               Regional Administrator
               EPA Region 10

TO:            Truman R. Beeler
               Divisional Inspector General for Audits
               Western Audit Division

Thank you for the opportunity to review your draft report and to provide comments on the findings
and recommendations. We also received comments from all four of the Washington Air Quality
Authorities (WAQAs) that were included in this audit. Some of their more significant comments or
concerns are incorporated into this memo; however, I have also attached their responses for your
review regarding specific details of fact and opinion.

In responding to the facts presented in the draft report, I will focus on those facts that the Region has
direct knowledge of, and refer you to the attached WAQA responses for comments on the facts
stated for respective agencies. Also, because there is not a specific section of the report summarizing
the facts, I will identify and address those that are apparent in the paragraphs of the report, focussing
on Chapters 2 and 3.

Chapter 2, Page 5, Paragraph 1: The numbers of reported significant violators (SVs) is correct (i.e.,
7 out of 155 major sources were identified as new SVs during FY96). You should also be aware that
there were 19 other major sources on the SV list for Washington that were being tracked as either
unaddressed or addressed.

Page 5, Paragraph 2, Sentences 2 and 3: "The causes of under reporting of SVs were related to
weaknesses in the Region's oversight and to WAQAs reporting practices. Some weaknesses related
to the Region's oversight include:


                                                   31         Report No. E1KAF7-10-0015-8100094
"(i) formal procedures for evaluating WAQAs’ air programs were not established by the
Region;"

        This statement should be clarified. Air Program Audits were conducted from 1984 through
1989 in Region 10 states as part of a National Air Audit Program. Since that time there have been a
few targeted program reviews. In the 1990's, formal air compliance program evaluations have not
been routinely conducted. The Air Program's oversight activities have included mid-year and end-of-
year reviews of the states' grant-funded work plans, and ongoing tracking of WAQAs' responses to
significant violators.

"(ii) instructions provided by the Region to WAQAs were not always clear; and"

        We assume this statement is referring to the WAQAs' understanding of the Region's
instructions, since instructions seemed clear to the Region. Prior to fall 1996, monthly meetings to
discuss SVs identified and tracked by the Region and WAQAs were attended by staff from the Region
and one person representing the WAQAs (i.e., Washington Dept. Of Ecology and seven local air
agencies). Questions and issues regarding violations reported for specific sources and more general
policies and procedures were supposedly transmitted through the state's Air Quality Compliance
Coordinator to the various state's regional offices and local air agencies. During FY96 the WAQAs
and the Region agreed that the way in which the monthly meetings were conducted was not efficient
or effective in communicating EPA's expectations as agreed to by the WAQAs in the FY93
Compliance Assurance Agreement. That agreement sets procedures for identifying, reporting, and
tracking SVs. The one area generating the most confusion has been the definition of significant
violator, as defined in EPA's Guidance on the Timely and Appropriate Enforcement Response to
Significant Air Pollution Violators.

"(iii) enforcement data recorded in AFS by the WDOE were not being used to report potential
SVs."

         This statement should refer to the routine use of AFS data. The Region has retrieved data
from the national database (AFS) in the past to review state enforcement actions, but has not
reviewed the state data on a routine basis to identify SVs. We have relied on the states to identify and
report all SVs that would be discussed during our monthly SV calls. Verifying the accuracy of the
state's quarterly submittal to AFS or questioning the data submitted would be part of a review of the
adequacy of a state's program.

Page 6, Paragraph 2: The statement referring to the state reporting SVs to EPA and maintaining
those facilities on the EPA list until compliance is achieved needs clarification. This sentence should
state that, in Region 10, EPA controls the SV designation in AFS and, only after consultation with
the state or local agency, EPA will either add a source to the SV list or delete a source from the SV
list.

                                                  32          Report No. E1KAF7-10-0015-8100094
Page 8 - Corrective Action Plan Not Implemented, Paragraphs 1 and 2: The statement that the
employees initially assigned to implement the Region's corrective action plan (as described in the
12/5/96 memo) had been working on other priority assignments needs clarification. The corrective
action plan described in the December memo was proposed but was delayed in its implementation.
There were no assignments made to implement the plan. Subsequent to the December memo, the
Region discussed how to implement the proposed survey in all four states in a short time frame. The
Office of Air decided that, if we wanted to assess the adequacy of states' compliance programs, we
should include evaluations of their inspections and enforcement follow up to violations, in addition to
their identification and reporting of SVs. Therefore, we were considering if we should conduct more
complete evaluations of the states' air compliance programs than were originally proposed.

About that same time (early 1997), your office initiated a screening survey of Washington and Oregon
air programs regarding adequacy of identifying and reporting SVs to EPA. Your office's original
scope also included reviewing those states' enforcement responses to the SVs. Because of your
office's proposed surveys in these two states, the Region decided to delay implementing its own
reviews until after receiving results from your survey. We wanted to build on and supplement your
review and not duplicate effort due to limited resources which would be diverted from EPA
enforcement activity. In addition, there were discussions in the Region outside of the Office of Air
Quality about designing and conducting comprehensive multi-media program enforcement program
evaluations in each state. The Region's Office of Air Quality is currently a participant in a Regional
workgroup, which includes representatives from the states, who are developing criteria to be used for
evaluating adequacy of state compliance and enforcement programs. The criteria will be finalized by
March 1998 and some specific program evaluations should begin by early summer of this year. These
criteria will enable the Region to more effectively evaluate the states' air programs. The above
activities contributed to delayed implementation of the originally proposed plan to conduct file
reviews in all four states by mid-FY97.

Page 8, Paragraph 2, Last Sentence: The sentence in the draft report states that the focus of the
comprehensive multi-media program evaluations will be priority data reporting. These
comprehensive reviews will look at all aspects of the states' programs, of which data reporting is one
of many.

Page 10, Puget Sound APCA, Item 1, Sentence 2: The wording "Accordingly, the APCA excluded
violations related to:" could be interpreted as all violations related to SIP, NSPS, and NESHAP were
not reported to EPA. This sentence should probably say "some violations."

Page 11, Conclusion, Second Sentence: There is an implication that the SVs are the
environmentally most important violations. There is currently some debate over the SV




                                                      33     Report No. E1KAF7-10-0015-8100094
definition, regarding whether or not some violations designated as significant under the current
definition are minor in scope or impact, and should not be considered environmentally significant.

Page 11, Recommendations:

       1.   Implement the corrective action plan submitted to OECA on December 5, 1996.

        Concur: The Office of Air Quality is committed to design and implement a process for
evaluating the adequacy of the state and local air agency compliance and enforcement programs. The
plan will be designed in FY98 and implementation in at least one state will begin in FY98.

        2. Develop procedures to periodically evaluate enforcement programs at WAQAs to
ensure they are operating their programs consistent with EPA guidance.

        Concur: Procedures for evaluating state programs, including appropriate criteria, are being
developed as part of a Regional effort involving our state partners. The developed criteria will apply
to all media compliance and enforcement programs and include all areas of the state programs that
have direct and indirect impacts on improvements to protection of human health and the environment.
The procedures should be completed in FY98, followed by initial implementation by the Region's
Office of Air Quality.

       3. Work with WAQAs to ensure they apply the SV definition against major sources.

       Concur: This recommendation was implemented in FY97. We have substituted the monthly
meetings with the state's Air Quality Compliance Coordinator with monthly conference calls that
include representatives from all the WAQAs. These calls have resulted in a better understanding of
the SV definition and improvement to the quantity and quality of violation data reported to EPA.

       4.   Review enforcement data from AFS to identify SVs.

        Concur: This recommendation will be implemented in FY98 beginning with a review of
enforcement data submitted by the states for the 2nd quarter of FY98. We will continue to review
the states' data on a quarterly basis.

        5. Give priority to completing the compliance assurance agreement so it can be used as
a mechanism to assure WAQAs have an understanding of EPA's expectation and procedures
to be followed for reporting SVs.

      Concur: This recommendation has been implemented. A revised compliance assurance
agreement was signed on February 17, 1998.




                                                     34     Report No. E1KAF7-10-0015-8100094
Chapter 3 - Findings:

Page 14, Paragraph 4: Inspections did not meet EPA level 2 inspection criteria at 6 out of 14 major
source inspections by the Puget Sound Air Pollution Control Agency (PSAPCA) and 5 out of 6 major
source inspections by the Yakima Regional Clean Air Authority (YRCAA). The following are
responses from PSAPCA and YRCAA to this statement:

       PSAPCA agreed with the findings and have begun implementing actions to improve their
       inspection program. They have designed and presented a Level 2 Inspection refresher course
       for their Inspection staff and are developing an Inspection Report Writing class. The Region
       will verify PSAPCA's corrective actions during its FY98 end-of-year review.

       YRCAA gave numerous comments on the draft report regarding inconsistencies, questions,
       and concerns. They believe the report does not reflect all the information given to the auditor
       and is not a fair assessment of their program. Please refer to their attached response for
       details.

Page 16, Paragraph 2: The Region's oversight was insufficient. State and local inspectors did not
have adequate guidance and training, and the Region's inspectors did not evaluate the state/local
inspectors' performance during joint inspections. In addition, the Region has not evaluated the state's
and locals' overall inspection programs.

       The above statements warrant further explanation. Evaluations of inspection programs were
       included in the national air audits performed in the mid to late 1980's. Since that time, there
       have not been regular reviews of the state and local air agencies or evaluations of the states'
       and locals' inspections. Over the last few years, if inconsistencies in findings and conclusions
       occurred between EPA and state inspectors during a joint/oversight inspection, those issues
       would be discussed and resolved in subsequent meetings. These case-by-case instances could
       be used for evaluating the adequacy of the state's inspections even though formal evaluations
       of these instances were not conducted. The concerns expressed in this finding will be
       addressed when the Region implements the state evaluations discussed in the responses to the
       following recommendations.

Page 16, Recommendations:

        1. Conduct evaluations of State and local inspection programs to ensure they are
consistent with EPA program guidance.

        Concur. Inspection programs will be included for review in the air compliance program
evaluations that the Region will design and begin implementing in FY98.




                                                      35     Report No. E1KAF7-10-0015-8100094
       2. Review State and local training manifest to ensure inspectors receive adequate
training for conducting level 2 inspections of major stationary sources.

      Concur. Under the compliance assurance agreement recently signed, EPA, the state and local
agencies have agreed to jointly identify training priorities on an annual basis as part of the
Collaborative Planning Process outlined in the agreement.

       3. Periodically review inspection reports prepared by State and locals to ensure the
scheduled level 2 inspections reported to EPA are consistent with EPA inspection criteria.

         Concur. Reviews of inspection reports will be included in the air compliance program
evaluations that the Region will begin implementing in FY98.

Appendix B, Other Matters: Inaccurate AFS Data

The Region agrees with the statements in the draft report regarding the need to improve the accuracy
of the data in AFS and has already begun working with the states to reclassify source codes and to
ensure that state enforcement activity in AFS is complete and accurate.




                                                    36     Report No. E1KAF7-10-0015-8100094
                                     APPENDIX E
                                   REPORT DISTRIBUTION




Office of Inspector General

       Acting Inspector General (2410)
       Deputy Assistant Inspector General for Internal Audits (2421)

EPA Headquarters Office

       Assistant Administrator for Office of Air and Radiation (6101)
       Assistant Administrator of Office of Enforcement and Compliance Assurance (2201A)
       Agency Followup Official (2710)
       Agency Followup Coordinator (2724)
       Associate Administrator for Regional Operations and State/Local Relations (1501)
       Associate Administrator for Congressional and Legislative Affairs (1301)
       Associate Administrator for Communications, Education and Public Affairs (1701)

Region 10

       Regional Administrator
       Director, Office of Air Quality
       Audit Followup Coordinator
       Regional Library




                                                   37     Report No. E1KAF7-10-0015-8100094
